                                                          2 0 0 2

S e m i a n n u a l   R e p o r t


Office of the Inspector General




                       October 1, 2001 ~ March 31, 2002
T e n n e s s e e V a l l e y A u t h o r i t y , 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




G. Donald Hickman
Inspector General (Acting)


April 30, 2002




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

I am pleased to submit this semiannual report on the accomplishments of the OIG for the six-month period end-
ing March 31, 2002.

It is a privilege to serve as the Acting Inspector General at TVA during this time. Following the tragic events of
September 11, 2001, we expanded our efforts to ensure the security and safety programs TVA has in place are
adequate. We also have continued our efforts to achieve our strategic objectives. Those objectives include
focusing on high risk areas, leveraging resources to optimize productivity and results, enhancing communications
with stakeholders, and delivering services that meet stakeholder needs.

I appreciate the support I have received as Acting Inspector General from OIG employees, the TVA Board, and
our other stakeholders. The OIG’s efforts during this reporting period have been well received and have con-
tributed in many ways toward helping TVA achieve its goals.

I look forward to further serving Congress, TVA, and our other stakeholders.

Sincerely,




G. Donald Hickman
Executive Summary                                                                                    1

TVA Profile                                                                                          2

Office of the Inspector General                                                                      3




                                                                                                               T A B L E
Special Features                                                                                     5

Audits                                                                                               9

Nonaudit Services                                                                                   13

Investigations                                                                                      14

Legislation and Regulations                                                                         20

Highlights                                                                                          31




                                                                                                               O F
Appendices                                                                                          22

Appendix 1 Audit Reports Issued                                                                     23

Appendix 2 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   26




                                                                                                               C O N T E N T S
Appendix 3 Investigative Referrals and Prosecutive Results                                          28

Appendix 4 Audit Reports With Corrective Actions Pending                                            29

Appendix 5 Index of Reporting Requirements Under the Inspector General Act                          30




                                                             SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         During this reporting period, we contin-        (1) preaward and postaward contract
                         ued our efforts to support TVA through          audits, (2) other financial-related audits,
                         quality audits and investigations. Our          (3) performance reviews of TVA opera-
                         reviews aligned with (1) the need to            tions, and (4) information technology
S U M M A R Y



                         ensure security and safety at TVA,              reviews. Corrective actions in response
                         (2) agency-wide principles set forth in the     to our audits included monetary recover-
                         President's management agenda, and              ies, process improvements, and security
                         (3) our strategic plan.                         enhancements. Nonaudit engagements
                                                                         were conducted primarily in support of
                         We believe our efforts helped TVA man-
                                                                         procurement activities.
                         agement avoid unnecessary costs,
                         recover funds, and correct identified           We also closed 114 investigations,
                         weaknesses. Also, in many instances,            including multi-agency task force proj-
                         our efforts helped confirm that many pro-       ects, which led to over $1.4 million in
                         grams were working effectively. In total,       recoveries, projected savings, and
                         we identified over $35 million in recover-      fines/penalties; administrative or discipli-
                         ies, fines/penalties, potential savings,        nary action against 6 individuals; and
                         questioned costs, or funds which could          other corrective action in 15 cases. Our
                         be put to better use. A large portion of        investigations led to several referrals to
                         these funds resulted from our preaward          TVA’s Designated Agency Ethics Official.
E X E C U T I V E




                         audits, where we identified potential sav-      Matters we investigated included alleged
                         ings for management to use in negotiat-         workers’ compensation fraud, contractor
                         ing contracts.                                  claims for temporary living expenses,
                                                                         environmental crimes, health care fraud,
                         We completed 40 audits and 12 nonau-
                                                                         and employee misconduct. Our investi-
                         dit service engagements during this
                                                                         gations also led to five individuals or enti-
                         reporting period. These reviews included
                                                                         ties being indicted and three convicted.




          T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L   1
                                                     benefits. These include navigation, flood
                                                     control, power supply, land use, water
                                                     quality, and recreation.

                                                     TVA also contributes to the Valley econo-
                                                     my, chiefly by keeping power rates com-
                                                     petitive, which helps attract and retain
TVA is a federal corporation established             industries that provide quality jobs in the
in 1933 to provide flood control, naviga-            region. TVA also helps communities pro-
tion, and electric power in the Tennessee            mote sustainable economic development
                                                     by providing assistance in job creation




                                                                                                   T V A
Valley region. Today, TVA is the nation’s
largest public power company and a                   and retention and productivity improve-
regional development agency that sup-                ments via capital investment, support of
plies low-cost reliable power, supports a            business incubators, specialized techni-
thriving river system, and stimulates sus-           cal services and advice, and recruitment
tainable economic development in a                   for new and existing industries.
service area that covers 80,000 square
                                                     TVA’s power system pays its own way by




                                                                                                   P R O F I L E
miles in the Southeastern United States,
                                                     selling electricity and issuing bonds. The
including almost all of Tennessee and
                                                     system does not use tax dollars. In
parts of Mississippi, Kentucky, Alabama,
                                                     addition, TVA no longer receives con-
Georgia, North Carolina, and Virginia.
                                                     gressional appropriations to help fund its
TVA generates power at 11 coal-burning               activities in navigation, flood control,
plants, 3 nuclear plants, 29 hydroelectric           environmental research, and land man-
dams, and 1 pumped storage plant.                    agement. These programs are now
TVA also produces energy from three                  funded by power revenues.
renewable sources––sun, wind, and
                                                     TVA is governed by a three-member
methane gas from waste. It provides
                                                     Board of Directors. Directors are
electric power to 158 local power distrib-
                                                     appointed by the President and
utors, 54 large industries, and 8 federal
                                                     confirmed by the Senate. Glenn L.
agencies through a network of 17,000
                                                     McCullough, Jr., is Chairman, and Skila
miles of transmission lines.
                                                     Harris and Bill Baxter are Directors.
TVA manages the nation’s fifth largest
river system. TVA’s dams are part of a
totally integrated resource management
system where each dam operates in
relationship to the others, and they are
used for multiple purposes and public




                                             2   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                                  Office Authority                                  Organization
OFFICE OF THE INSPECTOR GENERAL


                                  TVA’s OIG was created by the TVA Board            The OIG consists of two major opera-
                                  of Directors in October 1985. It became           tional units––Audits and Investigations.
                                  statutory under the Inspector General
                                                                                    OIG Audits consists of four depart-
                                  Act Amendments of 1988. Those
                                                                                    ments––(1) Advisory Services, focusing
                                  amendments established OIGs at TVA
                                                                                    on preaward audits and management
                                  and 32 other agencies with Inspectors
                                                                                    and congressional request work;
                                  General appointed by the agency heads.
                                                                                    (2) Corporate Operations and Control,
                                  The authority to appoint the TVA
                                                                                    focusing on contract compliance reviews
                                  Inspector General was transferred to the
                                                                                    and corporate programs; (3) Energy
                                  President in November 2000 by Public
                                                                                    Operations, focusing on TVA core busi-
                                  Law 106–422.
                                                                                    ness operations; and (4) Information
                                  The Inspector General is responsible for          Technology, focusing on computer secu-
                                  conducting audits and investigations              rity and system reviews and managing
                                  relating to TVA programs and operations,          the OIG’s independent computer
                                  while keeping the TVA Board and                   network.
                                  Congress fully and currently informed
                                                                                    OIG Investigations consists of three
                                  about problems and deficiencies relating
                                                                                    departments––(1) Business Integrity,
                                  to the administration of TVA’s programs
                                                                                    focusing on nuclear issues, workers’
                                  and operations. TVA’s Inspector General
                                                                                    compensation fraud and abuse, employ-
                                  is independent and subject only to the
                                                                                    ee misconduct, and OIG employment
                                  general supervision of the TVA Board of
                                                                                    suitability background investigations;
                                  Directors. The Inspector General’s
                                                                                    (2) Business Protection, focusing on
                                  authority includes conducting any audits
                                                                                    contract fraud, contract-related miscon-
                                  or investigations the Inspector General
                                                                                    duct, and environmental crimes; and
                                  deems necessary or desirable, issuing
                                                                                    (3) Computer Crimes and Electronic
                                  subpoenas, administering oaths, and
                                                                                    Commerce, focusing on computer intru-
                                  granting confidentiality to individuals who
                                                                                    sion and fraud issues, health care fraud,
                                  provide information to the OIG.
                                                                                    and workplace violence prevention.




            T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L        3
        Strategic Plan                                                  improving stakeholder relations, develop-




                                                                                                                     OFFICE OF THE INSPECTOR GENERAL
                                                                        ing our staff, and focusing our resources
        We continued our efforts to meet our five                       on areas that contribute to TVA’s
        strategic objectives: (1) cultivate and                         success.
        retain a highly skilled, innovative, and
        motivated workforce; (2) enhance com-
                                                                        Staffing and Budget
        munications with stakeholders and deliv-
                                                                        The OIG’s offices are in the TVA head-
        er services that meet their needs;
                                                                        quarters in Knoxville, Tennessee. The
        (3) leverage OIG resources to optimize
                                                                        OIG also has a satellite office in
        productivity and results; (4) focus on
                                                                        Chattanooga, Tennessee.
        areas of high risk to TVA; and (5) envision
        change affecting TVA and identify effec-                        The OIG’s fiscal year 2002 budget was
        tive solutions. We have concentrated                            $8 million with a budgeted headcount of
        during this period on the areas of                              90 employees.*


                                                INSPECTOR GENERAL
                                                      (Acting)

                                                    G. Donald Hickman




Legal Counsel                 Assistant Inspector                  Manager                 Assistant Inspector
                               General (Audits)                (Human Resources)          General (Investigations)
Richard P. Levi
                                Ben R. Wagner                     Kay T. Myers               G. Donald Hickman



                                           Advisory Services                       Business Integrity       
            Deputy Assistant                David P. Wheeler                        C. Dale Hamilton
           Inspector General                Manager                                 Manager
          (Audit and Support)
                                           Corporate Operations                    Business Protection      
             Lewis M. Ogles                 and Control                             Ron W. Taylor
                                            Jill M. Matthews                        Manager
                                            Manager

                                           Energy Operations                       Computer Crimes and 
                                            Paul E. Ivie                            Electronic Commerce
                                                                                    Curtis D. Phillips
                                            Manager
                                                                                    Manager

                                            Information Technology
                                             Deborah M. Thornton
                                             Manager



        * The OIG budget reflects a reduction from our previous semiannual report due to a change in
          accounting for employee benefits.




                                                           4     SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         SECURITY AND SAFETY AT TVA                         We also completed three reviews during

                         On October 10, 2001, the Chairman,                 this reporting period and initiated a major

                         TVA Board of Directors, testified before           effort to assist TVA in developing a plan

                         the Subcommittee on Water Resources                to validate the effectiveness of security

                         and Environment, Committee on                      procedures and controls. Highlights of
                                                                            these completed or ongoing projects
F E A T U R E S




                         Transportation and Infrastructure, United
                         States House of Representatives, on the            follow.

                         heightened physical security measures
                                                                             We assessed the adequacy of the
                         TVA was taking in light of the attacks on
                                                                               controls of a TVA automated system
                         America on September 11, 2001. The
                                                                               and found the controls to prevent
                         Chairman testified that heightened secu-
                                                                               unauthorized physical access were
                         rity measures were in force throughout
                                                                               sufficient. However, we noted the
                         TVA, including in TVA’s office buildings,
                                                                               controls to prevent unauthorized
                         dams, and power plants. The Chairman
                                                                               users from accessing the software
                         also noted that TVA was continuing to
                                                                               needed to be strengthened. TVA
                         further strengthen its overall security pro-
                                                                               management agreed with our findings
                         gram through improved integration of
                                                                               and is taking appropriate corrective
                         TVA’s major business units’ emergency
                                                                               action.
                         plans and emergency operations
                                                                             We assessed the adequacy of anoth-
                         centers.
                                                                               er TVA system and identified some

                         As a function of our oversight responsi-              opportunities for improvement in the
S P E C I A L




                         bility, we performed a preliminary survey             areas of granting access and devel-

                         to assess the adequacy of TVA’s security              opment of contingency plans in the

                         plans and actions taken in response to                event of system failure. TVA man-

                         the terrorist attacks and related threats.            agement agreed with our findings

                         We found TVA was taking or had taken                  and is taking appropriate corrective

                         appropriate measures to mitigate the                  action.

                         risks associated with the security of               We assessed the adequacy of TVA’s

                         TVA’s nuclear and nonnuclear facilities.              efforts to address workplace violence

                         However, due to the sensitive and evolv-              by identifying and comparing the key

                         ing nature of this issue, we concluded                elements of a workplace violence

                         that another survey of TVA’s infrastruc-              program to the programs and

                         ture security would be warranted in                   processes in place at TVA. Based on

                         about six months. Accordingly, during                 our findings, TVA management plans

                         the next reporting period, we plan to                 to, among other things, (1) establish

                         reassess the adequacy of TVA’s efforts.               a TVA-wide policy emphasizing TVA’s
                                                                               commitment to workplace violence




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      5
   prevention; (2) formalize and establish           Strategic Management of Human
   the role of a threat assessment team;             Capital
   (3) place additional emphasis on                  In the area of human capital, the
   training to increase employee aware-              President’s initiative includes taking steps
   ness, including the recognition of                to enhance management flexibility, permit
   aberrant behavior; and (4) develop                more performance-oriented compensa-




                                                                                                    S P E C I A L
   crisis management criteria and                    tion, correct skills imbalances, and pro-
   processes.                                        vide other tools to recruit, retain, and
 Recently, we made a major commit-                  reward a high-quality workforce.
   ment to assist TVA management in
   developing a cost-effective plan to               TVA’s personnel system is separate from

   evaluate TVA computer security pro-               the civil service; however, TVA is experi-

   cedures and controls. The assess-                 encing some of the same human capital

   ment will provide management with                 issues as other federal organizations.

   the current status of security controls           For example, because its workforce is

   to enable informed decisions for miti-            aging, TVA faces a prospective loss of

   gating risks to an acceptable level.              knowledge and skills through retire-

   When implemented, the assessment                  ments. Efforts TVA has taken in this area

   process will establish a framework,               include (1) a “3R” (recruit, retain, and

   baseline, and continuing cycle for                reward) Program developed to ensure




                                                                                                    F E A T U R E S
   assessing risk, developing and imple-             TVA has a workforce with the right skills

   menting security procedures and                   to meet future challenges, (2) an integrat-

   controls, and monitoring                          ed staffing achievement plan that sup-

   effectiveness.                                    ports overall business performance
                                                     objectives, and (3) establishing a “line of
THE PRESIDENT’S MANAGEMENT                           sight” between individual performance
AGENDA
                                                     and business unit/corporate
The President introduced a management                performance.
agenda for fiscal year (FY) 2002 that is
designed to improve the management                   OIG efforts in this area during the report-

and performance of the federal govern-               ing period included an audit that

ment. Government-wide areas targeted                 addressed staffing in TVA fossil plant

include: (1) strategic management of                 materials storerooms. Also during this

human capital, (2) competitive sourcing,             period, our investigative staff reviewed

(3) expanded e-government, (4) budget                the resources and processes in place at

and performance integration, and                     TVA to address workplace violence and

(5) improved financial performance.                  made recommendations for improve-
                                                     ment. (Projects mentioned herein are




                                             6   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         discussed in more detail later in this           ness processes, and unifying information
                         report.)                                         flows across lines of business in order to,
                                                                          among other things, (1) provide high-
                         Competitive Sourcing
                                                                          quality customer service, (2) reduce the
                         This initiative is designed to improve           expense and difficulty of doing business
                         competition between segments of the              with the government, and (3) cut govern-
F E A T U R E S




                         federal workforce who perform tasks              ment operating costs.
                         readily available in the commercial mar-
                         ketplace and private sector service              TVA has implemented web-based appli-
                         providers. This initiative is based on           cations for services it provides to the
                         requirements of the Federal Activities           general public such as dock permitting,
                         Inventory Reform Act and Office of               and to TVA distributors and directly
                         Management and Budget (OMB) Circular             served customers such as equipment
                         A-76 that are not legally applicable to          purchases through an eMarketplace.
                         TVA, which has separate procurement              TVA has a review and approval process
                         authority. However, in the last decade or        for all major projects, including those
                         so, TVA has contracted out much work             involving information technology.
                         previously done by TVA employees, an
                                                                          The OIG has audit and investigative
                         action that contributed to the almost 50
                                                                          departments which focus on computer
                         percent reduction in staffing since 1990.
                                                                          system controls, security, and intrusion.
                         The OIG contributes to the efficiency,           Work during the reporting period includ-
S P E C I A L




                         effectiveness, and competition in TVA’s          ed a review of TVA’s electronic business
                         contracting process by (1) providing con-        strategy.
                         tract advisory services, (2) performing
                                                                          Budget and Performance Integration
                         contract preaward and contract compli-
                                                                          This initiative is designed to (1) formally
                         ance audits, (3) providing negotiation
                                                                          integrate performance review with
                         support for TVA management on con-
                                                                          budget decisions, (2) identify high-quality
                         tracts where we have performed audits,
                                                                          outcome measures and accurately moni-
                         and (4) investigating contract fraud.
                                                                          tor program performance, and (3) more
                         Expanded E-Government                            completely integrate cost and perform-
                         The administration has established a             ance information in a single oversight
                         goal to champion citizen-centered elec-          process. Expected results of this initia-
                         tronic government that will result in a          tive include better performance, better
                         major improvement in the federal govern-         control over resources, and improved
                         ment’s value to the citizen. This effort         management accountability.
                         will center on improving information tech-
                         nology management, simplifying busi-




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L    7
TVA has adopted a scorecard strategy                  TVA has prepared annual, independently
that integrates budgeting, performance                audited, financial statements for many
management, and incentives in a pro-                  years. TVA also issues quarterly financial
gram called Winning Performance. The                  reports that are published and distributed
program defines agency success, identi-               to investors. TVA’s Chief Financial Officer
fies those things TVA must do well to                 routinely reviews financial and operating




                                                                                                       S P E C I A L
succeed, organizes and commits its                    performance information with TVA’s
resources (capital, budgets, and people)              Board of Directors and top executive
around those requirements, and bases                  team.
team incentive on the results. Progress
                                                      The OIG is active in this area. Each year
in meeting goals is published monthly.
                                                      we perform a review of TVA’s annual
TVA is also in the process of implement-
                                                      financial statement audit to ensure it is
ing activity-based management to even
                                                      performed in accordance with generally
better integrate strategy, performance,
                                                      accepted government auditing stan-
and cost.
                                                      dards. Also, in support of the prepara-
An OIG representative attends the                     tion and audit of the government-wide
agency quarterly performance reviews.                 financial statements, we review the trial
In addition, the OIG has adopted this                 balance data TVA submits to the OMB,
system, defining performance targets,                 General Accounting Office, and




                                                                                                       F E A T U R E S
monitoring performance, and linking                   Department of the Treasury. In addition,
incentive pay to levels of accomplish-                we conduct financial-related reviews to
ment. For reasons of independence,                    assess the effectiveness of internal con-
however, our performance measures are                 trols over various TVA financial programs
not linked to TVA’s.                                  and systems. For example, during this
                                                      period, we reviewed internal controls
Improved Financial Performance
                                                      over real estate transactions and over
This final government-wide initiative                 the system that provides data for TVA
encompasses strategies to reduce erro-                transmission services billing. These
neous payments and to ensure that fed-                types of reviews help TVA ensure the reli-
eral financial systems produce accurate               ability of its financial information for deci-
and timely information to support operat-             sionmaking and reporting purposes.
ing, budget, and policy decisions. One
of the expected results of these efforts is
improved accountability through audited
financial reports, achievable by financial
systems that routinely produce informa-
tion that is timely, useful, and reliable.




                                              8   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                       Summary of                                         We reviewed the proposed costs and

                       Representative Audits                                pricing methodologies submitted by
                                                                            two contractors for providing services
                       Audits are initiated from (1) the OIG                and equipment for TVA’s hydro mod-
                       annual workplan, (2) issues identified by            ernization program under a potential
                       the OIG subsequent to the annual work-               $350 million contract. One contrac-
                       plan, (3) issues identified by cooperative           tor’s proposal included about
                       efforts with TVA management, or (4) con-             $20 million in overstated costs and
                       cerns raised by TVA management or oth-               excessive profits. The other contrac-
                       ers. During this reporting period, we                tor’s proposal did not provide suffi-
                       completed 40 audits which identified                 cient data to assess the
                       almost $1.8 million in questioned costs              reasonableness of the proposed pric-
                       and about $31.9 million in funds which               ing methodology. In addition, the lat-
                       could be put to better use. We also                  ter proposal included (1) an inflated
A U D I T S




                       identified numerous opportunities for TVA            contribution margin that could
                       to improve program operations. Our                   increase TVA’s costs by about
                       audits included (1) preaward and post-               $4.4 million and (2) unreasonable
                       award contract audits, (2) other financial-          restrictions on TVA’s audit rights.
                       related audits, (3) performance reviews of           Negotiations for this contract award
                       TVA operations, and (4) information tech-            are ongoing.
                       nology reviews.                                    We reviewed a contractor’s proposal
                                                                            to provide air preheater equipment
                       PREAWARD CONTRACT AUDITS                             and related services under a planned
                       To support TVA management in negotiat-               seven-year, $50 million contract. We
                       ing procurement actions, we identified               determined the contractor’s proposal
                       about $31.9 million in potential savings             included excessive profit levels and
                       involving 17 preaward audits. During this            unreasonable sales and marketing
                       reporting period, TVA management suc-                expenses. TVA management subse-
                       cessfully negotiated $6.1 million in sav-            quently negotiated savings of
                       ings as a result of audits issued during             $2.2 million on future projects.
                       this and previous reporting periods and            We reviewed a contractor’s proposed
                       is continuing to negotiate other potential           labor and indirect cost rates for a
                       contracts audited during this period.                seven-year, $120 million contract to
                       Highlights of the more significant                   provide specialty fire protection
                       preaward audits follow.                              equipment and services. We deter-
                                                                            mined TVA could save about
                                                                            $1.8 million by (1) reducing the billing
                                                                            rate for payroll taxes to correspond




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L     9
   with the contractor’s actual costs and                   partial recovery of the questioned
   (2) eliminating certain direct costs and                 costs and decided not to renew the
   including the cost recovery in the                       contract.
   contractor’s overhead rate. The con-                  A contractor providing chemical serv-
   tractor agreed with our findings and                     ices to TVA overbilled about $43,000
   revised its proposal accordingly.                        of the $5.67 million invoiced under
 We reviewed a contractor’s proposed                       the contract. TVA management
   adjustments to its labor and indirect                    agreed with our findings and is seek-
   cost rates under a contract to pro-                      ing recovery of these costs. In a
   vide selective catalytic reduction                       related matter, we found the contrac-
   process equipment and services.                          tor’s request for a price increase
   Some of the proposed rates were                          involving a proposed extension to the
   overstated and could have increased                      contract was fairly stated.
   TVA’s costs by about $912,000                         At the request of TVA management,




                                                                                                      A U D I T S
   based on estimated contract expen-                       we reviewed two labor adjustment
   ditures of $40 million. TVA manage-                      claims submitted by a contractor that
   ment subsequently negotiated                             installed combustion turbines at TVA
   savings of about $709,000.                               facilities. We identified $116,000 in
                                                            unsupported labor costs and calcula-
CONTRACT COMPLIANCE
                                                            tion errors.
During this reporting period, we complet-                A contractor providing transmission
ed 12 contract compliance audits that                       line services could not support about
identified nearly $1.8 million in ineligible                $1.4 million of the $4.4 million billed
and unsupported costs. Management                           for labor, equipment, and mobiliza-
generally agreed with our findings and                      tion. TVA management agreed the
has taken or plans to take appropriate                      costs were not appropriately support-
corrective action. Highlights of some of                    ed but decided not to seek recovery
the more significant audits follow.                         after determining the work had been
                                                            performed. However, TVA manage-
 A contractor providing industrial
                                                            ment did take action to improve con-
   hygiene services either overbilled or
                                                            trols over documentation and
   could not adequately support about
                                                            approval of future work performed
   $220,000 of the $1.3 million invoiced
                                                            under the contract.
   for labor and equipment. In addition,
   the contractor could not provide doc-                AFFIRMATIVE PROCUREMENT
   umentation that nine of its employees
                                                        We assessed (1) compliance of TVA’s
   met the professional qualification
                                                        Affirmative Procurement Plan with
   requirements stipulated in the con-
                                                        Section 6002 of the Resource
   tract. TVA management negotiated a




                                               10   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                       Conservation and Recovery Act (RCRA)               REAL ESTATE TRANSACTIONS
                       and applicable regulatory guidance and             We reviewed the adequacy of TVA’s con-
                       (2) TVA’s execution of the plan. We                trols over the acquisition and disposal of
                       found the plan addressed applicable                land and found the controls to be suffi-
                       RCRA requirements, but opportunities               cient and working effectively except in
                       for improvement exist. The plan’s                  the area of communications between
                       requirements regarding minimum content             TVA organizations. In addition, we con-
                       standards appeared inconsistent both               cluded TVA’s policy over the use, acqui-
                       internally and with Environmental                  sition, and disposal of TVA land should
                       Protection Agency (EPA) guidance. Also,            be updated. TVA management agreed
                       contrary to plan requirements, TVA deci-           with our findings and is taking steps to
                       sions to purchase items not meeting                (1) revise processes and update and/or
                       minimum content standards were gener-              integrate systems to facilitate better
                       ally not documented. TVA management                communication between TVA organiza-
A U D I T S




                       agreed with our findings and is taking             tions and (2) institute an updated busi-
                       appropriate corrective action.                     ness practice for land management.

                       STOREROOM ACCESS AND                               FY 2001 FINANCIAL STATEMENT
                       STAFFING AT TVA FOSSIL PLANTS                      AUDIT
                       We reviewed storeroom access and                   We reviewed TVA’s FY 2001 financial
                       staffing at TVA’s 11 fossil plants and             statement audit by (1) assessing the
                       found the number of individuals with               methodology used by the external audi-
                       access to materials storerooms                     tor in performing the financial statement
                       appeared excessive at all but one plant.           review, (2) performing supplemental tests
                       We also found that (1) overtime worked             of the accounting records and compar-
                       by fossil plant storeroom employees, on            ing our results to those of TVA’s external
                       average, increased during the 29-month             auditor, and (3) examining the independ-
                       period reviewed; and (2) about 50 per-             ence of the external auditor. We deter-
                       cent of fossil plant storeroom employees           mined the financial statement audit was
                       were near retirement. TVA management               performed in accordance with generally
                       agreed with our findings and has initiated         accepted government auditing standards
                       action to reduce the number of individu-           in all material respects.
                       als with storeroom access, establish
                       optimum storeroom staffing levels at               TRANSMISSION AND ENERGY
                                                                          SCHEDULER (TES) SYSTEM
                       each site, and implement staffing plans
                       for refilling positions due to retirements.        TES is used to validate the reservation
                                                                          and scheduling of TVA’s transmission
                                                                          system. We determined the automated
                                                                          internal controls of TES were adequate




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L     11
to ensure accurate information for billing            ELECTRONIC BUSINESS STRATEGY
purposes. However, no process existed                 We assessed the reasonableness of
to provide adequate oversight of manual               TVA’s agency-wide electronic business
overrides to the system. In addition, the             (e-business) guidance by comparing
system did not provide the reporting                  TVA’s guidance to that of 21 federal
capabilities necessary to adequately                  agencies. In summary, we found that,
monitor controls and system activity.                 unlike the other federal agencies, TVA
TVA management agreed with our find-                  had not developed comprehensive
ings and is taking corrective action by               agency-wide guidance. We recom-
(1) developing additional processes for               mended that TVA develop an agency-
manual overrides of the system and                    wide business practice on e-business to
(2) enhancing the system’s reporting                  provide guidance on critical success fac-
capabilities.                                         tors, coordinating internal efforts, opti-
                                                      mizing technology investments,
DAM SAFETY INSPECTION PROCESS




                                                                                                    A U D I T S
                                                      managing risk, and addressing key
We reviewed TVA’s dam safety inspection
                                                      e-business issues. TVA management
process and found that the process
                                                      agreed and is implementing our
(1) complied with federal guidelines for
                                                      recommendation.
dam safety, (2) was effectively followed
by inspection personnel, and (3) was
adequately supported by an information
database. We also found, however, that
TVA could improve its process by
(1) ensuring dam inspection work orders
include an updated checklist of items
needing to be inspected, (2) establishing
a process for evaluating the risks associ-
ated with further delaying maintenance
on overdue projects, and (3) routing
inspection reports on equipment used to
support both powerhouse and spillway
operations through TVA’s Manager, Dam
Safety Inspections and Instrumentation.
TVA management agreed with our find-
ings and has taken appropriate action to
improve its dam safety inspection
process.




                                             12   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                              Summary of Nonaudit                                    ation study, retiree dental benefits,
                                                                                     employee benefits, and information
                              Services
                                                                                     technology vulnerability assessments.

                              We provide nonaudit services upon                    We performed additional analyses of
S E R V I C E S



                              request to assist TVA management in                    data included in a prior report dated

                              improving the efficiency and effectiveness             December 20, 2000, addressing the

                              of its operations. In addition, when                   willingness of nuclear security con-

                              requested, we provide information, data,               tractor employees to report nuclear

                              and analyses to members of Congress to                 safety and quality issues.

                              help keep them informed about aspects                We provided our view on the security

                              of TVA’s operations. In some instances,                risks associated with removing pass-

                              we initiate nonaudit services, such as a               word protection linked to some sensi-

                              “management alert,” when we believe a                  tive fossil plant processes and

                              particular issue needs to be brought to                procedures.

                              management’s attention for immediate
                              consideration. Depending upon the
                              objective, these reviews are performed in
                              accordance with either the (1) American
                              Institute of Certified Public Accountant’s
                              Standards for Consulting Services or
N O N A U D I T




                              (2) President’s Council of Integrity and
                              Efficiency’s (PCIE) Quality Standards for
                              Inspections.

                              During this reporting period, we complet-
                              ed 12 projects involving nonaudit servic-
                              es. Highlights follow.

                               We participated as an advisor to TVA
                                   Procurement on a potential partner-
                                   ing agreement with a large firm for
                                   the design, engineering, and fabrica-
                                   tion of boiler components, spare and
                                   repair parts, and engineering services
                                   at various TVA fossil plants.
                               We provided informal advice on six
                                   Requests for Proposal involving
                                   truckload transportation services,
                                   audiovisual services, a reservoir oper-




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L           13
Summary of                                                Former Employee Convicted

Representative                                            A joint investigation performed by the
Investigations                                            TVA OIG and the United States
                                                          Department of Labor (DOL) OIG revealed
During the last six months, we investigat-                a former TVA Nuclear pipefitter receiving
ed allegations and concerns received                      FECA benefits was performing construc-
from ratepayers, TVA managers and                         tion work but did not report that employ-




                                                                                                        I N V E S T I G A T I O N S
employees, governmental and congres-                      ment to OWCP as required.
sional staffs, and OIG auditors. Our
                                                          As a result of our investigation, the for-
investigations, including task force proj-
                                                          mer employee pled guilty to one count of
ects, resulted in (1) over $1.4 million in
                                                          making false statements to receive bene-
recoveries, projected savings, and
                                                          fits. The individual was ordered to serve
fines/penalties, (2) five individuals or enti-
                                                          four months in a federal prison, four
ties being indicted, and (3) three individu-
                                                          months’ confinement in a halfway house,
als or entities being convicted.
                                                          and three years’ probation. In addition,
Representative investigations are high-
                                                          he was ordered to pay TVA $22,988 in
lighted below.
                                                          restitution.
WORKERS’ COMPENSATION
BENEFITS INVESTIGATIONS                                   As a result of this conviction, OWCP ter-
                                                          minated the individual’s benefits, provid-
To receive benefits under the Federal
                                                          ing a projected long-term savings to TVA
Employees’ Compensation Act (FECA),
                                                          of over $800,000.
recipients must periodically submit forms
to the Office of Workers’ Compensation                    Administrative Results
Programs (OWCP) that require the recipi-
                                                          During this period, we also reported the
ent to report all employment, including
                                                          following administrative results.
self-employment. OWCP uses the forms
to determine a recipient’s continuing eli-                 A joint investigation with the DOL OIG
gibility for FECA benefits. Failure to dis-                   revealed that a former TVA employee
close employment information to OWCP                          was receiving benefits to which he
violates state and federal laws.                              was not entitled.

During this reporting period, our FECA                        Over 20 years ago, a TVA craftsman
fraud investigations led to recoveries and                    apprentice was injured on the job.
long-term savings of over $1.3 million                        He subsequently received continuous
and one conviction. Highlights of our                         payments for a loss in wage earning
investigative results follow.                                 capacity (LWEC). OWCP/TVA also
                                                              provided rehabilitation benefits




                                                 14   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                                   through which, over time, he received          FALSE CLAIMS––TEMPORARY
                                   both bachelor’s and master’s                   LIVING EXPENSES (TLE)
                                   degrees. The individual eventually             We continued our efforts to reduce TVA
                                   became head of a county agency,                contract costs by identifying fraudulent
                                   earning more than three times the              and ineligible TLE paid to TVA contractor
                                   salary upon which his LWEC was                 employees. During this reporting period,
                                   based.                                         one TLE investigation resulted in a recov-
I N V E S T I G A T I O N S




                                                                                  ery exceeding $17,000.
                                   Although the individual reported his
                                   earnings to OWCP as required, he               Our investigation revealed a TVA con-
                                   continued to receive LWEC benefits             tractor employee received per diem ben-
                                   every four weeks.                              efits to which he was not entitled. The
                                                                                  employee should have received TLE only
                                   As a result of this investigation,
                                                                                  if he incurred duplicate expenses for a
                                   OWCP terminated the individual’s
                                                                                  permanent home more than 100 miles
                                   benefits, providing a projected long-
                                                                                  from his TVA assignment. Evidence
                                   term savings to TVA exceeding
                                                                                  showed, however, that the contractor
                                   $350,000.
                                                                                  employee did not incur duplicate
                               Eyewitness testimony and documen-
                                                                                  expenses as he had stated on several of
                                   tation gathered during our investiga-
                                                                                  his TLE certifications.
                                   tion showed a former TVA employee
                                   owned and was actively involved in a           Prosecution was declined in this case in
                                   concrete finishing company but did             favor of administrative remedies available
                                   not report this employment activity to         to TVA. As a result of an agreement
                                   OWCP on three claim forms he sub-              between the contractor’s employer and
                                   mitted between 1992 and 1997.                  TVA, the individual made a lump sum
                                                                                  payment to his employer of $17,827.50,
                                   As a result of our findings, OWCP
                                                                                  which was credited to TVA.
                                   ruled the individual would forfeit ben-
                                   efits he received based on the three           EMPLOYEE MISCONDUCT
                                   forms and declared he was overpaid             Ethics Issue
                                   $122,489. Prosecution was declined
                                                                                  We received an allegation that a former
                                   in this case in favor of administrative
                                                                                  TVA Board member, while at TVA, pur-
                                   remedies.
                                                                                  chased season tickets to University of
                                                                                  Tennessee football games at face value
                                                                                  without making a separate required
                                                                                  annual monetary donation. Because
                                                                                  TVA has contracts with The University of
                                                                                  Tennessee, it generally would be an




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L      15
ethics violation for a TVA employee to                 remained in Knoxville receiving per diem
accept a gift exceeding $20 from the                   payments over half of the time after the
University.                                            transfer. The responsible manager was
                                                       counseled.
After conducting a preliminary review,
this office recused itself. At our request,            Sexual Misconduct
the Office of Personnel Management                     Evidence revealed a TVA employee
(OPM) OIG completed an investigation                   engaged in sexually related misconduct




                                                                                                     I N V E S T I G A T I O N S
into this allegation. The OPM OIG deter-               at a TVA worksite. As a result of our
mined the Board member––who left TVA                   investigation, the individual was demot-
during the OPM investigation––paid face                ed, suspended without pay for two
value for tickets beginning in 1993, but               weeks, and transferred to another work
did not make the required annual dona-                 station.
tion to the University. The OPM OIG fur-
                                                       Ethics Referral
ther found the former Board member did
not solicit the tickets, the University did            We developed information indicating
not ask him for a donation, and he made                some car rental companies doing busi-
a donation for one year upon learning of               ness with TVA may be offering TVA exec-
the allegation against him. The Board                  utives and their spouses discounted
member stated he did not know a mone-                  rates not available to other TVA employ-
tary donation was required. We referred                ees or the general public. Based on the
the OPM findings to TVA’s Designated                   information we developed and discus-
Agency Ethics Official (DAEO), who stat-               sions with the TVA DAEO, we referred
ed he would include the “lessons                       this matter to the DAEO so he could take
learned” from this matter in future ethics             action to ensure TVA executives are sen-
training.                                              sitive to the ethics regulations regarding
                                                       acceptance of personal discounts from
Senior Manager Transfer
                                                       TVA contractors. The DAEO advised us
We concluded a perception of favoritism                he would include a discussion of ethics
and waste resulted from (1) allowing a                 guidelines related to this issue at an
manager to attend on TVA time a univer-                upcoming TVA Business Council meet-
sity located in a city where the manager’s             ing, and he would address the topic in
spouse resided, which was outside the                  future ethics briefings, training sessions,
Tennessee Valley; (2) authorizing TVA’s                and updates. (The Business Council
reimbursement or payment of various                    consists of TVA Vice Presidents and
expenses related to the manager’s atten-               above.)
dance at the university; and (3) subse-
quently transferring the manager to the
same city, even though the manager




                                              16   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                                   HEALTH CARE FRAUD TASK FORCE                       Federal Charges Against Doctor and
                                                                                      Nurse in Health Care Fraud Scheme
                                   We continued to support health care
                                   fraud task forces and working groups               As a result of a task force investigation, a
                                   sponsored by United States Attorneys’              Knoxville, Tennessee, physician and
                                   offices in Tennessee’s Eastern, Middle,            nurse were named in a 57-count
                                   and Western federal districts.                     indictment.

                                                                                      The charges included conspiracy, money
I N V E S T I G A T I O N S




                                   The cases below reflect our involvement
                                   in the Eastern District of Tennessee               laundering, mail fraud, and health care
                                   Health Care Fraud Task Force. Other                fraud. The indictment alleged, among
                                   participants on the task force include the         other things:
                                   following local, state, and federal agen-
                                                                                       From 1994 to the present, the physi-
                                   cies: Sevier County (Tennessee) Sheriff’s
                                                                                         cian devised a scheme to receive
                                   Department, Tennessee Bureau of
                                                                                         payments from various health care
                                   Investigation, Internal Revenue Service
                                                                                         benefits programs, including TVA’s
                                   Criminal Investigations, United States
                                                                                         medical plan and the TennCare/
                                   Department of Health and Human
                                                                                         Medicaid program, based on fraudu-
                                   Services (HHS) OIG, Federal Bureau of
                                                                                         lent representations. The nurse
                                   Investigation (FBI), and United States
                                                                                         joined and participated in this
                                   Department of Defense Criminal
                                                                                         scheme as early as April 1996.
                                   Investigative Service.
                                                                                       The physician and/or nurse submitted
                                   Physician Indicted                                    claims to the benefits programs,

                                   Investigation of a physician’s claims to              although the physician was not enti-

                                   various benefits plans (including TVA’s) is           tled to receive payment because of

                                   being conducted by special agents of                  his exclusion from participation in

                                   the TVA OIG and agencies serving on the               those programs. (HHS had barred

                                   task force.                                           the physician from participation in the
                                                                                         TennCare/Medicaid and Medicare
                                   During the investigation, a forensic exam-            programs since at least 1994 as a
                                   ination of the physician’s computers by a             result of convictions for federal health
                                   TVA OIG Special Agent revealed evi-                   care fraud offenses he committed. In
                                   dence which led to the physician’s indict-            addition, during 2001 a medical cen-
                                   ment on one count of possessing                       ter the physician operated was
                                   computer images containing child                      excluded by HHS from participating
                                   pornography. The investigation of his                 in all federal health care programs.)
                                   claims continues.




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L          17
ENVIRONMENTAL CRIMES JOINT                             Guilty Plea: Clean Water Act Violated
TASK FORCE (ECJTF)                                     by Waste-Disposal Company and Its
                                                       President
We continued our participation in the
ECJTF, which is comprised of members                   A Chattanooga company and its presi-
from state and federal agencies, includ-               dent each pled guilty to one count of vio-
ing the FBI, EPA, Department of Justice,               lating the Clean Water Act.
TVA’s OIG, and the TVA Police.
                                                       Investigation revealed the president of a




                                                                                                     I N V E S T I G A T I O N S
ECJTF focuses enhanced law enforce-                    waste recycling/disposal company and
ment resources against individuals and                 his company knowingly falsified docu-
companies by applying the most effec-                  mentation to the city of Chattanooga
tive federal and state criminal and civil              relating to the company’s permit to dis-
statutes.                                              pose of nonhazardous waste into sewer
                                                       lines at its facility.
Our participation in the task force sup-
ports one of TVA’s Six Strategic                       On over 40 occasions, the company’s
Objectives––River and the Environment.                 discharge monitoring reports to the city
Highlights of the task force’s work report-            failed to disclose its wastewater dis-
ed during this period include the                      charges exceeded limitations. According
following.                                             to the EPA, levels of copper in the dis-
                                                       charged wastewater were as much as
Criminal Sentencing: Fish Kill––
                                                       17 times the federal limit, and the levels
Improper Use of Pesticide
                                                       of zinc as much as 14 times the limit.
Investigation revealed the owner of a
produce company was responsible for a                  The company and its president are
major fish kill in the Sequatchie River, a             awaiting sentencing.
tributary of the Tennessee River.

The responsible individual pled guilty in
the United States District Court to one
count of use of a registered pesticide in
a manner inconsistent with its labeling.
The individual was placed on probation
for 4 years, ordered to perform
150 hours of community service, and
sentenced to pay restitution of
$42,369.98 to Tennessee Wildlife
Resources Agency and $1,602.44 to the
affected municipal water system.




                                              18   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                                                                           Administrative and Disciplinary Actions
                                                                              April 1, 1997 ~ March 31, 2002*
                                                                                         T o t al = 2 7 2

                                                                                                                         O ra l / W ri t t e n
                                                                                                                          W a rn i n g s
                                                                                                                                19%                                    Su s p e n s i o n s /
                                         R e e m pl o y m e n t
                                                                                                                                                                        D emo t i o n s /
                                               F l ag g ed
                                                                                                                                                                         T ra n s f e rs
                                                   20%
                                                                                                                                                                             9.5%


                                                                                                                                                                               R es i g n at i o n s /
I N V E S T I G A T I O N S




                                                                                                                                                                               T e rm i n a t i o n s
                                                                                                                                                                                     10.5%

                                                                                     C o u n s el i n g /
                                                                                     Man ag emen t
                                                                                     T e c h n i qu e s
                                                                                           41%


                                                                                *Prosecutive referrals are shown in Appendix 3.




                                                                                                                                                            Closed Cases by Area
                                                                                                                                                       October 1, 2001 ~ March 31, 2002
                                                                                                                                                                   T o t al = 9 0 *
                                                                                                                                                                                                         T ra n s m i s s i o n /
                                                                                                                                                                                                               Po w e r
                                                                                                                                                  A d m i n i s t ra t i o n
                                                                                                                                                                                                               Su p p l y
                                                                                                                                                          19%
                                                                                                                O t h er                                                                                          7%
                                                                                                                12%                                                                                                             F o s s i l Po w e r
                                                                                                                                                                                                                                     13.5%




                                                                                                                                                                                                                                    H u man
                                                                                                                                                                                                                                  R e s o u rc e s
                                                                                                            R i v e r Sy s t e m                                                                                                       11%
                                                                                                            O p e ra t i o n s &
                                                                                                                                                                        T V A N u cl ear
                                                                                                            E n v i ro n m e n t
                                                                                                                                                                            25.5%
                                                                                                                     12%

                                                                                                                                                 *Figures do not include 24 OIG employment suitability
                                                                                                                                                  background investigations closed during this period.




                                                         Sources of Hotline Calls Warranting Further OIG Action
                                                                   October 1, 2001 ~ March 31, 2002
                                                                                T o t al = 4 1




                                                                  T V A / C o n t ra c t o r
                                                                                                                                                                     F o rm e r T V A /
                                                                     E m pl o y e e s
                                                                                                                                                                      C o n t ra c t o r
                                                                           54%
                                                                                                                                                                      E m pl o y e e s
                                                                                                                                                                           12%




                                                                                                                                                 G e n e ra l P u b l i c
                                                                                                                                                         34%




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                                                                                                        19
Effective October 1, 2001, the TVA OIG
became a member of the PCIE. We




                                                                                                   L E G I S L AT I O N A N D R E G U L AT I O N S
continued to follow issues of interest to
the OIG and TVA, including proposals
regarding law enforcement authority and
utility deregulation.




                                            20   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L   21
APPENDICES




    22   SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                          Audit Reports Issued
                          AUDIT REPORT
                          NUMBER                                                             QUESTIONED UNSUPPORTED FUNDS PUT TO
                          AND DATE     TITLE                                                   COSTS       COSTS     BETTER USE

                          2001-085C
                          10/16/2001                General Electric - Johnsonville             $7,753       $7,753
                                                    Labor Adjustment

                          2001-084C
                          10/17/2001                Federal Data Corporation -
                                                    Contract No. 00002054
                                                    (Formerly 97BYQ-216424-001)

                          2001-060P
                          10/22/2001                Storeroom Access and Staffing at
                                                    TVA Fossil Plants
1




                          2001-023C
                          10/25/2001                Crisp & Crisp Contracting -               1,401,145    1,401,145
                                                    Contract 95PA4-143741-02
A P P E N D I X




                          2001-049C
                          10/29/2001                Sugar Camp Coal LLC -
                                                    Contracts 97P01-197103,
                                                    97P05-218982, 97P05-219030,
                                                    and 98P05-236835

                          2001-077C
                          11/06/2001                Alstom Power, Inc. -                                                $603,400
                                                    Bull Run Boiler Modifications

                          2001-032F
                          11/07/2001                Review of Internal Controls Over
                                                    Real Estate Transactions

                          2001-043C
                          11/09/2001                Alstom Power Environmental Systems                                   912,000

                          2001-052T
                          11/26/2001                Electronic Business Strategy

                          2001-040C
                          11/30/2001                McDaniel Fire Systems                                               1,784,344

                          2001-080F
                          12/04/2001                Review of Tennessee Valley Authority’s
                                                    FY 2001 Financial Statement Audit

                          2001-083F
                          12/10/2001                Review of the Internal Controls of the
                                                    Transmission and Energy
                                                    Scheduler System

                          2001-086T
                          12/10/2001                Unix Server Security Assessment

                          2001-066C
                          12/17/2001                Key Services - Contract 00PYC-158282




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                            23
Audit Reports Issued
AUDIT REPORT
NUMBER                                             QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                   COSTS       COSTS     BETTER USE

2002-003V
12/18/2001   Alstom Power Inc. - Hydro Division,                                       $20,000,000
             Turbines and Generators

2002-006C
12/19/2001   General Electric Company -                $107,998          $107,998
             Field Labor Cost Adjustment -
             Lagoon Creek I Project -
             Contract No. P98P6D-195379-000

2002-007C
12/19/2001   Trism Inc. - Contract




                                                                                                              A P P E N D I X
             No. 00002483 (Formerly
             99BC5-252631-000)

2001-012C
12/21/2001   Analytical Industries, Inc. -              220,400            23,801
             Contract 97PPW-219248

2001-064T
12/21/2001   Hydro Automation Security - HDCC

2001-059C
01/02/2002   Enron North America Corp.

2001-074T
01/07/2002   Application Review of Pegasys

2000-012P
01/09/2002   TVA’s Affirmative Procurement Plan for
             Items Containing Recovered Materials

2002-018V
01/09/2002   Review of BCBS-TN’s Proposed
             Administrative Services Only Fee

2002-023C
01/10/2002   United States Enrichment Corporation -
             Contract Nos. 95N8A-118891-000
             and 99N8A-185677-015



                                                                                                              1
2002-005V
01/18/2002   Bechtel Proposal for TVA Browns                                              512,077
             Ferry Unit One Recovery
             Support Services

2001-053C
01/25/2002   Alstom Power, Inc. - Air Preheater Division                                 2,154,657

2002-027C
01/25/2002   Photo Science, Inc.

2001-089C
01/29/2002   Ondeo Nalco -                                 42,676
             Contract 99N7B - 236079




                                                      24    SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         Audit Reports Issued
                         AUDIT REPORT
                         NUMBER                                                          QUESTIONED UNSUPPORTED FUNDS PUT TO
                         AND DATE     TITLE                                                COSTS       COSTS     BETTER USE

                         2002-026C
                         01/29/2002                Tuck Engineering, Inc.

                         2002-028C
                         01/29/2002                Michael Baker, Inc.

                         2002-029C
                         01/29/2002                Earth Data International

                         2001-056C
                         02/06/2002                Review of Contract 94N8A-106630
                                                   Framatome Cogema Fuels
1




                         2002-024V
                         02/13/2002                GE Hydro Power, Inc. - Hydro                                                 $4,400,000
                                                   Modernization Project
A P P E N D I X




                         2001-076F
                         02/14/2002                Review of TVA’s Dam Safety
                                                   Inspection Process

                         2002-030C
                         02/28/2002                Haverfield Aviation - Audit of Contract
                                                   No. 00001049 and Contract
                                                   No. 969A1-176544-000

                         2002-039C
                         03/07/2002                Verification of Summarized
                                                   Facts Data FY 2001

                         2002-036V
                         03/15/2002                Stone & Webster, Inc. -
                                                   TVA Nuclear Modification and
                                                   Supplemental Maintenance Services

                         2002-001V
                         03/27/2002                Duratek Price Increase                                                          895,000

                         2002-035V
                         03/27/2002                Day & Zimmermann NPS, Inc. -                                                    613,000
                                                   Nuclear Maintenance and Modifications

                         2002-040C
                         03/28/2002                Calvert City LLC - Solicitation
                                                   of Offers for Terminal Services


                         TOTAL                     40                                        $1,779,972    $1,540,697         $31,874,478*


                         * This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                            25
Audit Reports Issued With Questioned Costs
                                                                                      QUESTIONED COSTS
                                                              NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period              1                 $103,553            $103,553

B.   Which were issued during the reporting period                 5               $1,779,972          $1,540,697

Subtotals of A and B                                              6              $1,883,525           $1,644,250

C.   For which a management decision was made during
     the reporting period                                          6*              $1,883,525          $1,644,250




                                                                                                                        A P P E N D I X
     (i) Dollar value of disallowed costs                          5                 $267,471            $219,304

     (ii) Dollar value of costs not disallowed                     2               $1,616,054          $1,424,946

D.   For which no management decision has been made by
     the end of the reporting period                               0                        $0                  $0

E.   For which no management decision was made within
     six months of issuance                                        0                        $0                  $0


* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs disallowed
  and not disallowed by management.




                                                                                                                        2




                                                         26    SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         Audit Reports Issued With Recommendations for Better Use of Funds
                                                                                                    NUMBER              DOLLAR VALUE




                         A.     For which no management decision has been
                                made by the commencement of the reporting period                        2                      $335,250

                         B.     Which were issued during the reporting period                           9                   $31,874,478

                         Subtotals of A and B                                                          11*                $32,209,728

                         C.     For which a management decision was made during
                                the reporting period                                                    8**                  $7,182,728
2




                                (i) Dollar value of disallowed costs                                    7                    $6,068,937

                                (ii) Dollar value of costs not disallowed                               2                    $1,113,791

                         D.     For which no management decision has been made by
A P P E N D I X




                                the end of the reporting period                                         4                   $25,027,000

                         E.     For which no management decision was made within
                                six months of issuance                                                  0                             $0


                         * The total number of reports (A+B) differs from the sum of C and D when the same reports contain recommendations
                           with and without management decisions.

                         ** The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs disallowed
                            and not disallowed by management.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                  27
Investigative Referrals and Prosecutive Results
Referrals

          Subjects Referred to United States Attorneys                                       5
          Subjects Referred to Other Agencies for Investigative or Administrative Action     4


Results

          Subjects Indicted                                                                  5
          Subjects Convicted                                                                 3
          Referrals Declined                                                                 6


          OWCP declared an overpayment for one individual and terminated benefits for




                                                                                                                   A P P E N D I X
          two others, creating a recovery and projected savings totaling $1,286,658.




                                                                                                                   3




                                                           28    SEMIANNUAL REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                         Audit Reports With Corrective Actions Pending
                         AUDIT REPORT
                         NUMBER
                         AND DATE                      DESCRIPTION




                         2000-016P
                         February 23, 2001              The report contained two recommendations regarding the internal controls associated with TVA
                                                        coal quality adjustment report (CQAR) payments. TVA has corrected the CQAR calculation
                                                        errors identified in this audit and has developed, but not implemented, computer software to
                                                        provide additional automated controls for these payments.

                         2000-026C-01
                         April 02, 2001                 The report contained a recommendation regarding automation of staff augmentation billing
4




                                                        processes. TVA is considering options for tracking contractor tasks.

                         2001-001C
                         July 23, 2001                  The report contained a recommendation regarding recovery of overbillings. TVA is seeking
                                                        recovery.
A P P E N D I X




                         2001-028F
                         June 20, 2001                  The report contained three recommendations about internal controls over contributions and one
                                                        about $8 million of unused funds. TVA is still working towards a comprehensive resolution of all
                                                        the recommendations.

                         2001-034T
                         September 07, 2001             The report contained ten recommendations regarding aspects of TVA’s computer security pro-
                                                        gram. TVA is planning security assessments to commence this fiscal year.

                         2001-036P
                         September 12, 2001             TVA management has initiated, but not completed, action to correct the CQAR calculation
                                                        errors identified in this audit. In addition, consistent with our recommendation in Audit
                                                        2000–016P, TVA management has developed, but not implemented, computer software to pro-
                                                        vide additional automated controls for these payments.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                          29
Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                         PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                           20


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                                5-19


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies                5-19


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                                Appendix 4




                                                                                                                                A P P E N D I X
Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                      Appendix 3


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                           None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                                Appendix 1


Section 5(a)(7)   Summary of Particularly Significant Reports                                                   9-19


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs            Appendix 2


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                         Appendix 2


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                              None


Section 5(a)(11) Significant Revised Management Decisions                                                      None




                                                                                                                                5
Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed                   None




                                                                30   S E M I A N N U A L REPORT / OCTOBER 1, 2001 ∼ MARCH 31, 2002
                                                                       MAR 31,         SEPT 30,        MAR 31,        SEPT 30,        MAR 31,
                                                                        2002             2001           2001            2000           2000

                          ANNUAL BUDGET (In Millions of Dollars)           8.0*           8.6             8.6             7.2             7.2
                          CURRENT STAFFING                                 90             86              74              77              79

                           AUDITS & SPECIAL PROJECTS

                          AUDITS IN PROGRESS
                          Carried Forward                                  38              45              43              48             36
                          Started                                          43              44              52              38             59
                          Canceled                                          (8)             (4)             (7)             (8)            (2)
                          Completed                                       (40)            (47)            (43)            (35)           (45)
                          In Progress at End of Reporting Period           33              38              45              43             48

                          AUDIT RESULTS (Thousands)
                          Questioned Costs                             $1,780          $3,519         $2,613          $1,800           $952
H I G H L I G H T S




                          Disallowed by TVA                               267           1,236          3,010             379             820
                          Recovered by TVA                                225           1,634            821             390           1,333

                          Funds to Be Put to Better Use               $31,874        $10,401         $70,422         $12,862          $5,296
                          Agreed to by TVA                              6,069         10,155          37,450          12,499           5,509
                          Realized by TVA                               6,090          8,277          30,918          17,340           5,775

                          NONAUDIT SERVICES (Thousands)
                          Completed                                        12                0             13              8              12
                          Cost Savings Identified/Realized                  0                0              0           $233            $345

                           I N V E S T I G AT I O N S

                          INVESTIGATION CASELOAD
                          Opened                                           93              94             86             132             107
                          Closed                                          114             120             83              99             111
                          In Progress at End of Reporting Period          126             147            173             170             137**

                          INVESTIGATIVE RESULTS (Thousands)
                          Recoveries                                     $233          $6,527           $214            $179          $3,758
                          Savings                                       1,175             542            532             521             988
                          Fines/Penalties                                 0.1             105            250              11              25

                          ADMINISTRATIVE AND
                          DISCIPLINARY ACTIONS
                          Recommended (# of Cases)                         22               13             14              13             21
                          Actions Taken (# of Subjects)                     6                8             30              11             13
                          Counseling/Management
                             Techniques Employed (# of Cases)              15                3               9              6               5

                          PROSECUTIVE ACTIVITIES (# of Subjects)
                          Referred                                           5              13              7              32               7
                          Indicted                                           5               5             19               5               6
                          Convicted                                          3               7             14               5               9

                          * An additional $1.6 million in benefits is being covered in FY 2002 as a corporate rather than an organizational expense
                             as was done in the past.
                          ** Adjusted from previous semiannual reports.




       T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                    31
                 The OIG Vision:
         . . . illuminating today’s challenges
             and tomorrow’s solutions . . .




OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
